  Department of Health and Human Services
          OFFICE OF
     INSPECTOR GENERAL




NATIONAL      MARROW      DONOR PROGRAM


 GEOGRAPHIC   OVERLAP   AMONG    DONOR         CENTERS




                          # 0EI-01-95-O0122

                        OFFICE OF INSPECTOR                  GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, evaluations, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.




                OFFICE OF EVALUATION                   AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department, the

Congress, and the public. The inspection reports provide findings and recommendations on the

efficiency, vulnerability, and effectiveness of departmental programs.





OEI’S Boston Regional Office prepared this report under the direction of Mark R. Yessian, Ph. D.,

Regional Inspector General. Principal OEI staff included:


Boston Region                                                  Headquarters

Russell W. Hereford, Ph. D., Project Leader                    Alan Levine, Program Specialist

Elizabeth Robboy, Program Analyst



To obtain a copy of this report, contact the Boston Regional Office by telephone at

(617) 565-1050 or by fax at (617) 565-3751.

  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




NATIONAL      MARROW    DONOR PROGRAM


 GEOGRAPHIC   OVERLAP AMONG     DONOR CENTERS




                        # OEI-01-95-00122

             EXECUTIVE                            SUMMARY


PURPOSE

To provide a preliminary assessment of the extent of overlap among donor centers
participating in the National Marrow Donor Program.

BACKGROUND

Bone marrow transplantation is a treatment for blood borne diseases such as leukemia and
Iymphoma. For a transplant to be successful, the patient’s and donor’s blood cell
proteins, or human leukocyte antigens (HLA), must match as closely as possible.

The National Marrow Donor Program (NMDP) is a nonprofit organization based in
Minneapolis, Minnesota that finds matching donors for patients seeking a transplant. The
NMDPoperates the congressionally authorized marrow donor registry under contract with
the Health Resources and Services Administration (HRSA). The NMDPaccredits donor
centers that recruit volunteers to join the registry, which contains almost 1.5 million
potential donors in 97 domestic donor centers.

Staff at HRSAasked us to assess the extent to which donor center service areas overlap.
This report responds to that request.

This report is based on 88 responses to a mail survey of the domestic centers; analysis of
service area information provided in the NMDP’S Donor Center Access Directory and U.S.
census data; and site visits to nine donors centers across the country.

FINDINGS

Fifty-seven of the 88 donor centers responding to our survey report that more than
one ‘donor center operates in their area.

       Forty-eight of these 57 centers say that their geographic service areas overlap.

       Forty-three centers say that their target populations overlap.

Our population-based analysis of all donor centers’ descriptions of their service areas
reveals even greater geographic overlap than donor centers reported in responses to
our survey.

       The service areas of 24 of 96 donor centers are covered in full by at least
       1 other center.

       For 54 donor centers, more than half of their population live in an area served by
       at least one other center.


                                              i
The extent of service area overlap appears to have little, if any, impact on donor
centers’ performance as measured by:

       Rate of growth in donor list.

       Cost per new donor on the list.

       Donor retention at fwst stage followup (DR) testing.

       Donor retention at second stage followup (CT) testing.

CONCLUSION

Our report identifies a substantial degree of overlap among donor centers. However, our
analysis does not reveal any negative impact on center performance arising from that
overlap. To be sure, there appears to be some competition between donor centers serving
the same area. Such competition, however, may be beneficial.

On the other hand, some of our respondents raised concerns about inefficiencies and
COnfUSiOI’I IIX.dthg frOIII OVdZtp. The NMDP, WOdChIjjWith HRSA, k 100kkg at options
for restructuring the contlguration of the donor center network, including consolidation of
donor centers at the local level as one way of reducing overhead costs. The substantial
degree of geographic overlap that we found among donor centers indicates that such a
restructuring could be accomplished without disrupting the geographic service areas that
are currently covered in most regions of the country.

COMMENTS ON THE DRAFI’ REPORT

We received comments from HRSA and the NMDP. They offer the general comment that
this report oversimplifies a complicated issue. We agree that this is a complex issue, but
we also note this report is intended only as a first look at the issue of overlap. Our
analysis is based on county-level depictions of each donor center’s semice area, as
provided by NMDP. By any definition, the county is a broad unit of amlysis. We agree
that, should HRSA and NMDPproceed to consider these issues in their evaluation of the
donor center network, a more precise targeting of each center’s true service area would be
needed.




                                              ii
                     TABLE                 OF        CONTENTS




EXECUTIVE        SUMMARY



INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1


FINDINGS


  � Multiple     centersinsarne     area   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3


  .   Population-based analysis shows even greater overlap . . . . . . . . . . . . . . . . . . 3


  � Impact     ofservice area overlap . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


CONCLUSIONS           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


CONfMENTS ON THE D~REPORT                              . . . . . . . . . . . . . . . . . . . . . . . ...9


APPENDICES


A: Extent ofservice area overlap . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..            A-1


B: Methodology        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. B-l


C: Textofcomments         onthe draft report        . . . . . . . . . . . . . . . . . . . . . . . . . .. C-l

D: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..       D-l
                          INTRODUCTION


PURPOSE:

To provide a preliminary assessment of the extent of overlap among donor centers

participating in the National Marrow Donor Program.


BACKGROUND:


Bone Marrow Transplantation


Bone marrow transplantation is a treatment for blood borne diseases such as Ieukemias

and lymphomas. About 16,000 people are diagnosed each year with leukemia and other

fatal blood diseases. 1 Many of these people could benefit from a bone marrow

transplant, a procedure in which the patient’s diseased bone marrow is destroyed and

marrow from a healthy donor is infused into the patient’s blood stream. Bone marrow

produces platelets, red blood cells, and white blood cells, the agents of the body’s immune

system. For a bone marrow transplant to be successful, the patient’s and donor’s antigens

must match as closely as possible. About thirty percent of the time the patient has a

sibling with matching antigens. In the other seventy percent of cases the patient must seek

an unrelated donor.


Three pairs of blood cell proteins, known as the Human Leukocyte Antigen (HLA)-A,

-B and -DR, are important in dete rrnining whether a match will be successful. One antigen

in each pair is inherited from an individual’s mother, the other from the father. Because

there are numerous antigens at each HLA-A, -B, -DR locus, more than 600 million

combinations are theoretically possible.2


The National Marrow Donor program


The National Marrow Donor Program (NMDP)is a nonprofit organization based in

Minneapolis, Minnesota. The NMDP operates the Congressionally authorized marrow

donor registry under contract with the Health Resources and Services Administration

(HRSA). The contract is funded at $40,471,000, from July 1994 through April 1997.


The NMDPbegan operations in September 1987 as a non-profit organization funded

through a contract from Office of Naval Research. The NMDPwas created through a

cooperative effort of the American Association of Blood Banks, American Red Cross, and

Council of Community Blood Centers. The NMDP began search operations with 10

transplant centers, 49 donor centers and 8,000 donors listed on the registry. As bone

marrow transplantation came to be seen as viable technique, the U.S. Navy recognized

that it was inappropriate for the military to maintain a civilian registry. In 1989,

responsibility for the contract was transferred to the National Heart, Lung, and Blood

Institute in the National Institutes of Health. Contract oversight for the NMDPwas again




                                             1

transferred in 1994 to HRSAin recognition that NMDPwas a service delivery program,
rather than a basic research initiative.

The NMDPaccredits donor centers that recruit volunteers to join the registry. As of
October 1995, the registry contained almost 1.5 million donors in 97 domestic donor
centers, and an additioml 450,000 donors from 6 foreign centers. Eighty-one of the
domestic centers are blood centers, either Red Cross-affiliated or part of community blood
centers; 13 centers are departments of hospitals, and 3 are free standing centers. Six of
the domestic centers have more than 50,000 donors on their list; another 35 centers have
between 10,000 and 50,000 donors each. The remaining 56 centers have fewer than
10,000 donors.

In some areas of the country several donor centers cover similar territory. Staff at HRSA
asked us to assess the extent of overlaps in these service areas. This report responds to
that request.

SCOPE and METHODOLOGY

This report addresses the domestic donor centers only. The report is one of four
companion reports addressing the Natioml Marrow Donor Program. The other three
reports are: National Marrow Donor Program: Progress in Minority Recruitment (OEI-
01-95-00120); National Marrow Donor Program: Effectiveness in Retaining Donors (OEI-
01-95-00121); and National Marrow Donor Program: Financing Donor Centers (OEI-Ol-
95-00123).

This report is based on four primary data sources:

1) A mail survey of the 97 domestic donor centers. We received 88     responses,   a
response rate of 91 percent.

2) 1990 U.S. Census Data at a county level.

3) The NMDP’SDonor Center Access Directory, in which each donor center displays a
map of the geographic area that it covers.

4)	 Site visits to donors centers in California, Massachusetts, Minnesota, New Jersey,
North Carolim, and South Carolina.

Appendix B provides a more detailed description of our methodology.

We conducted this study in accordance with the QualiQ Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                              2

                                    FINDINGS


FIFTY-SEVEN (65 PERCENT)OF THE 88 DONORCENTERS RESPONDING TO OUR SURVEY
REPORTTHATMORE THANONE DONORCENTEROPERATESIN THEIR AREA.

  �	    Forty-eight (84 percent) of these 57 centers say that their geographic service
        areas overlap.

  �     Fozty-three (75 percent) say that their target populations overlap.

In their responses to our survey:

  F	    Twelve donor centers indicated that four other centers operate in their area. Three
        of these centers are affiliated with the American Red Cross, five with independent
        blood banks, two are hospital based programs, and two are free-standing centers-­
        one private and one the U.S. Navy’s Bill Young Marrow Donor Center. Two of
        these donor centers characterized their relationship as competitive with two of the
        four other centers operating in their area, and two centers said it was competitive
        with one other center.

  E	    Twelve centers said that three other donor centers operate in their area. Three are
        afilliated with the Red Cross, five with blood banks, three are hospital-based, and
        one is free standing. Two of these centers said that their relationship was
        competitive with all three; two said it was competitive with two of the centers, and
        three said it was competitive with one center.

   �	   Fourteen centers reported that two other centers operate in their area. Four centers
        said relationship was competitive with both, and five said it was competitive with
        one.

   �	   Nineteen centers reported that one other center operates in their service area.
        Seven centers said the relationship was competitive.

OUR POPULATION-BASED ANALYSIS OF ALL DONOR CENTERS’ DESCRIPTIONS OF THEIR
SERVICE AREAS REVEALS EVEN GREATER GEOGRAPHIC OVERLAP THAN DONOR
CENTERS REPORTED IN RESPONSES TO OUR SURVEY.


   �	   The service areas of 24 of 96 donor centers are covered in full by at least one
        other center.

   �	   For 54 donor centers, more than half of their population lives in an area served
        by at least one other center.




                                               3

We matched county-level census data from 1990 with donor centers’ self-defined service
areas. This provides an objective measure of the “Service Area Overlap, ” which we
define as:

         The percentage of the population in a donor center’s service area that is also
               served by at least one other center.

An overlapping service area does not mean that the service areas of two centers are
identical. Rather, it means that a particular donor center might overlap in one part of is
service area with one center, in another part of its area with a second center, and perhaps
in another part of its service area with yet a third center.

Appendix A provides a center-by-center breakdown of the extent of service area overlap.

Service area overlap is most extensive in a few States:

    �    California, where 8 of 11 centers overlap 100 percent, and 1 center overlaps more
                 than 90 percent;

    �    Texas,	 where 4 of 9 donor centers overlap 100 percent, and 1 more overlaps more
                 than 90 percent;

    F    Maryland/Washington D. C., where 2 of 4 donor centers overlap 100 percent, and
                2 others overlap more than 90 percent;

    �    New England, where all 4 donor centers serving the 6 states (Connecticut, Maine,
              Massachusetts, New Hampshire, Rhode Island, Vermont) overlap 100
              percent;

    �    Idaho,	 where 2 donor centers based there and others from Utah and Washington
                 lead to 100 percent overlap for the Idaho centers.

    b    Illinois, where two of four donor centers have 100 percent overlap, and another
                  two more have greater than 75 percent overlap.


~       EXTENT OF SERVICE AREA OVERLAP APPEARS TO HAVE LITTLE, IF ANY, IMPAC1’
ON CENTERS’ DONOR RECRUITMENT OR DONOR RETENTION PERFORMANCE.


We examined four effectiveness measures to make an assessment of the impact associated
with geographic overlap. Two effectiveness measures relate to recruitment of new
donors, and two measures address donor retention. We grouped centers into 6 categories,
defined by the extent of geographic overlap. We created groups comprised of the centers
at either extreme--100 percent overlap and no overlap. We then assigned the other centers
to quartiles based on the degree of overlap.



                                              4

Recruitment Effectiveness Measures:

Rate of growth in donor list. If competition among donor centers operating in the same
area were a concern, it would manifest itself in donor recruitment. Between October 1,
1994 and September 30, 1995, the domestic registry3 grew from 1,069,144 to 1,340,941
donors. As Table 1 shows, the increases within each group of centers cluster around the
overall mean of 25 percent. The smallest increase--2O percent--occurred among centers
with overlap between 75 and 99.9 percent. At the extremes, those centers with no
overlapping service areas had a 27 percent growth, while those whose service areas
overlapped completely averaged 28 percent growth.




                            10Q%         13           10                     28%                            $52.28
                                                                            [4-50%]                     [$20.38-$226.08]
                  75 % -99.9%             9           4                       20%                            $75.06
                                                                            [8-64%]                      [21.73-$164.93]
                   50% -74.9 %           11            5                      29%                           $44.12
                                                                            [7-78%]                      [$22.48-$87.98]
                  25 %-49.9 %            12           4                      29%                            $50.75
                                                                           [1349%]                       [$22.68-$73.83]
                  0.1 %-24.9%            11            9                     23%                            $55.53
                                                I             I             [0-40%]              I      [$19.69-$134.05]
                              o%          4            1                     27%                             $39.59
                                                                           [10-71%]                      [31.78-$63.45]

 All Centers                             60           33                     25%                              $54.41
 Excludes U.S. Navy’s Bill Young Marrow Donor Center because of that center’s unique focus on military personnel worldwide;
 also excludes 1 contract center that was extreme outlier in mean cost per new donor.

 List size: n= 1,340,941 (September 30, 1995)
            n= 1,069,144 (September 30, 1994)
           cost per new donor calculated fmm May 1, 1994 through April 30, 1995
 Data source: NMDP Registry Statistics, October 1995 and October 1994                                       Analysis: OIG/OEI


Cost per new donor. We present the mean cost per new donor added to the list for the
year ending April 30, 1995, to provide a preliminary assessment of the cost impact of
service area overlap. As Table 1 shows, five of the groups are quite close in the mean
cost per donor, between $39 and $56. One group, however--those with overlap between
75 and 99 percent--show higher mean costs. These cost data should be treated with some
caution. In our companion report, National Marrow Donor Program: Financing Donor
Centers (OEI-01-95-00123), we find that centers paid on contract receive higher payments



                                                               5

from the NMDPthan do those paid on a fee-for-service basis. The current amlysis does
not factor in this important difference payment mechanism; table 1, however, does present
data on the number of centers paid under each mechanism.

Retention Effectiveness Measures: The NMDP identifies four reasons that an individual
may not come forward for further testing at either fiist level followup testing (DR) or
second level followup testing (CT): unable to contact donor, donor not interested, donor
medically deferred, donor temporarily unavailable. Our companion report, National
Marrow Donor Program: Effectiveness in Retaining Donors (OEI-01-95-00121), provides
an assessment of the overall effectiveness of the program in retaining donors at both the
DR and CT stages.

Retention at DR testing. Donor centers received over 17,000 requests for DR testing in
the 6-month period between April 1 and September 30, 1995, of which they filled 12,503
(72 percent). The lowest DR retention rates--63 percent--occurred in those centers where
there is no service area overlap, and the highest rate--78 percent--in the centers with less
than 25 percent overlap.

Retention at CT testing.            Donor centers received over 4,500 requests for CT testing in the
six-month period between April 1 and September 30, 1995, of w-hich they filled 3,422
(76 percent). The CT retention rates within each group of centers cluster closely around
that mean, ranging from 71 to 80 percent.


                                                        Table 2

                                        Service Area Overlap and Donor Retention


 Extent of Service Area Overlap         Number of           Mean Retention at DR Testing        Mean Retention atCT Testing
                                         Centers                      @ange]                              ~ge]

                           100 %             23                         72 %                                74 %
                                                                     [49-100%]                           [43-100%]

                  75 % -99.9    %
                                    I        13
                                                        I               65 %
                                                                     [53-100%]              I               71 %
                                                                                                         [54-100%]

                  50 % -74.9    %            18                        75 %                                 78 %
                                                                     [61-98%]                            [54-100%]

                  25 % -49.9    %            16                         75 %                                80 %
                                                                     [61-100%]                           [68-100%]

                  0.1 % - 24.9%              20                         78%                                78%
                                                                      [58-93
                                                                           %]                            [67-100%]
                               o%            6                          63 %                                78 %
                                                                      [47-85 %]                          [59-100%]

 All Centers                                 96                         72 %                               76 %

 Excludes U.S. Navy’s Bill Young Marrow Donor Center because of that center’s unique focus on military persomel worldwide.

 DR Requests Resolved between April 1- September 30, 1995 = 17,333

 CT Requests Resolved between April 1- September 30, 1995 = 4,515

 Data source: NMDP Registry Statistics, October 1995 and October 1994                                      Asudysis: OIG/OEI





                                                               6

Donor centers operating in the same area frequently collaborate in their work. For
example, 51 percent of centers in overlapping areas report that they routinely share
information about recruitment drives with other local centers, and 38 percent report that
they hold drives in conjunction with these other centers. Although 70 percent of these
centers report informal understandings with the other donor centers, however, only 5
percent report any written agreements with other donor centers about how to focus their
efforts.

Importantly, the reimbursement system may have a significant effect on the extent to
which donor centers would hold drives together. Sixty-two donor centers are reimbursed
by NMDPon a fee-for-service basis. 4 These centers receive a fued amount for each
donor they recruit ($10 for each Caucasian, $28 for each person from a racial or ethnic
minority). Because these recruitment fees are the fimncial base of any fee-for-service
donor center, the incentive to be the sole sponsor of a drive is very strong.

In our survey and site visits, some donor center staff did identify potential inefficiencies
and confusion that can arise from multiple donor centers in the same area. Donor centers
raised two types of concerns that can arise from multiple donor centers in the same
geographic area: duplication of costs and confusion among donors. The director of one
donor center captured this concern when she told us, “A hospital here has a marrow donor
center, but it is also our chief customer for whole blood. We serve identical patient
populations--we even have a blood center facility inside that hospital. Having two donor
centers that service the same patients is an expensive duplication of effort and creates
extensive confusion in the community. ”

Concerns about duplication were most evident where a new center has been established in
an area served by an existing center. At several donor centers we saw evidence of
possessiveness (e. g., comments about our donors). The comments from the director of
one donor center is illustrative of how strongly these feelings run. “The NMDPrecently
approved a new program where we already have a satellite office. The new one is very
small--less than 1,000 donors. So that center thinks that we should hand them all our
donors in that area--not just new ones, but those that we already recruited. ”




                                             7

                            CONCLUSIONS


Our report identifies a substantial degree of overlap among donor centers. Responses to
our survey of donor centers, as well as our separate population-based analysis, reveal
geographic overlap; our survey responses also show that donor center directors believe
that their target populations overlap.

However, our analysis does not reveal any negative impact on center performance arising
from that overlap. To be sure, there appears to be some competition between donor
centers serving the same area. Competition in itself may be beneficial, as it may spur
donor centers to work even more diligently to expand their lists. In addition, in many
overlapping areas, we found donor center staff who reported a generally cooperative
attitude toward their colleagues, and they frequently share information about recruitment
activities.

On the other hand, some of our respondents raised concerns about potential inefficiencies
and confusion resulting from overlap. Certainly, where two or more donor centers serve
the same area or target the same population, the potential exists for duplication of services
and subsequent duplication of costs. These costs could include administrative overhead
expenses, persomel costs, and recruitment expenses, such as publicity, travel, and on-site
expenses of conducting drives.

We do not make any recommendations regarding the optimal confQuration of the donor
center network. We understand that the NMDP,working with HRSA,is looking at options
for changing the structure of that network. The substantial degree of geographic overlap
that our analysis found among donor centers indicates that restructuring could well be
accomplished without disrupting the geographic service areas that currently are covered in
most regions of the country.




                                              8
COMMENTS                        ON       THE         DRAFT               REPORT

We sought comments on the draft report from the Health Resources and Services

Admini&ation (HRSA),the Assistant Secretary for Planning and Evaluation (ASPE),and

the Assistant Secretary for Health (ASH). In addition, HRSArequested comments on the

report from the National Marrow Donor Program.


HRSAand NMDPoffer the general comment that this report, which did not contain

recommendations for action, oversimplifies a complicated issue. We agree that this is a

complex issue, but we also note that this report is intended only as a first look at the issue

of overlapping service areas.


HRSAand NMDPcite concerns that the term service area overlap was not well-defined.

We based this term on county-level depictions of each donor center’s service area, as

provided by NMDP. We recognize that this is broad unit of analysis by any definition.

Should HRSAand NMDPproceed to consider these issues in their evaluation of the network

configuration, a much more precise targeting of each center’s true service area would be

worthwhile. This targeting could be based, for example, on ZIP codes of donors on the

list of each center. That information was not available to us for this analysis.


NMDPalso states that the fact that some counties are served by more than one donor

center is ignored in reaching conclusions about the percentage of population served. Our

report nowhere makes a statement about the percentage of population served, but our

analysis directly addresses the issues of counties in which more than one donor center

operates.


The ASPEand ASHresponded that they had no comments on this report.





                                               9

                                 APPENDIX                                   A


             EXTENT OF SERVICE AREA OVERLAP

The
  following     table presents the service area overlap for each donor center.

The acronym ARC stands for American Red Cross.

~eci~provided        istieheadquafiers    office ofeach donor center. Some centers have
additional satellite offices in other cities.

The Service Area Population was obtained using county-level U.S. Census data from
1990, combined with the service area defined by each donor center in the NMDP’SDonor
Center Access Directo~, published in October, 1995.

The number of donors on each center’s list was obtained from the NMDP’SMonthly
Registry Statistics for October, 1995.


                                                                                                  Donors on
lCenter I                             I                        I        ] Serviee Areal Percentl Center’s List I
 Number Center                         City                        State    Population Overlap (October, 1995)
        1 ARC St. Paul                 St. Paul                    MN       5,105,798      11%            18,716
        2 ARC Los Angeles              Los Angeles                 CA      12,529,506     98%            79,823
        3 I ARC South Carolina        I
                                       Columbia                !
                                                                   Sc       3,486,703     33%             11.737
        41Stanford University Blood   \Palo Alto                   CA       2,147,2WI 100%                 8,524
            Bank
        5 Sacramento Medical                  Sacramento           CA       4,709,359    100%           22,496
            Foundation
        6 Blood Bank of San                   San Bernardino       CA       2,588,793    100%             9,566
            Bemzwdino
        7 San Diego Blood Bank                San Diego            CA       3,777,732     31%           24,060
        8 Irwin Memorial Blood                San Francisco        CA       1,618,549    100%            9,031
            Center
        9 ARC Northern California             San Jose             CA       2,119,668    100%            14,330
       10 ARC Connecticut                     Farmington           CT      12,326,600    100%            48.748
       11 Civitan Blood Center                Gainesville          FL         554,759     58%             2,428
       12 Fox-Ft. Lauderdale Labs             Lauderhill           FL       4,469,237    100%            15,296
       13 ARC South Florida                   Miami                FL       3,270,606    100%            16.109
       14 Florida Blood Services              St. Petersburg       FL       2,480,192     11%            13,351
       15 ARC Atlanta                         Atlanta              GA      10,518,803     52%            28,045
       16 ARC Heart of Illinois
         1                                I
                                              Peoria               IL       3,946,270     61%             3.979
       17 ARC Fort Wayne                      Fort Wayne           IN       2,628,1811    88%             4,916




                                                           A-1

18 Central Indiana Blood      Indianapolis         IN   5,544,159    42%    16,043
   Center
19 Poudre Valley Hospital     Fort Collins         co     798,030    94%    2,554
22 Memorial Blood Center      Mimeapolis           MN   1,676,784    19%    4,248
23 Johns Hopkins MedicaJ      Baltimore            MD   4,270,760    92%    4,755
   Center
24 ARC Central Maryland       Baltimore            MD   3,260,823     97%    9,583
25 NIH Marrow Donor           Rockville            MD   4,125,640    100%   35,979
   Center
26 Dana Farber Cancer         Boston               MA   8,353,605    100%   11,180
   Institute
28 ARC Southeastern           Detroit              MI   4,341,223     0%    21,706
   Michigan
29 Grand Valley Blood         Grand Rapids         MI    1,981,642   55%    13,963
   Program
30 ARC Great Lakes Region     Lansing              MI   3,651,886    30%    28,384
31 Oklahoma Blood Institute   OklahomaCity         OK   1,383,650    77%     3,265
32 University of Iowa         Iowa City            IA   3,233,026    58%     8,774
   Hospitals
33 ARC Midwest Region         Omaha                NE    1,991,505   26%     7,868
34 ARC Greater Upstate New    Albany               NY    1,942,024   11%     7,552
   York
35 ARC Rochester              Rochester            NY    1,729,762     2%    7,516
36 ARC Syracuse               Syracuse             NY    1,563,868     0%    4,480
37 ARC Carolinas Region       Charlotte            NC    6,894,642    19%   62,780
38 Hoxworth Blood Center      Cincinnati           OH    1,680,402    36%    5,259
39 ARC Northern Ohio          Cleveland            OH    4,706,151    24%   16,221
40 ARC Central Ohio           Columbus             OH    3,074,462    22%    9,588
41 ARC Northwest Ohio         Toledo               OH    1,060,170     o%    2,076
42 ARC Oklahoma Region        Tulsa                OK    2,770,330    38%    5,340
43 ARC Pacific Northwest      Portland             OR    3,937,645    11%   14,719
44 ARC Johnstown              Johnstown            PA    3,410,233    56%    3,885
45 ARC Penn-Jersey Region     Philadelphia         PA   10,110,990   100%   17,544
46 Wadley Cancer Center       Dallas               TX    2,561,371   100%   23,623
48 ARC Mid-Atlantic           Norfolk              VA    3,349,752    23%    9,119
49 Spokane-InlandEmpire       Spokane              WA    1,474,738    37%    5,727
   Blood Bank
50 ARC Badger Region          Madison              WI   3,631,770     31%   11,664
51 ARC Washington DC          Washington           DC   3,917,108    100%   10,098
52 Saginaw Valley Blood       Saginaw              MI   1,981,642     55%    3,560
   Program
53 Life BIood                 Memphis              TN    8,485,325   64%    14,895
54 Hawaii Marrow Donor        Honolulu             HI    1,108,229    o%    12,617
   Registry
55 Jacksonville Donor         Jacksonville         FL    1,020,450   12%     2,674
   Registry


                                             A-2
                                    Lexington             KY        1,896,480       33%        7,271
1    56 Central Kentucky Blood
        Center
I    57/United Blood Services       /Scottsdale           AZ        2,742,989       12%       15,105
     581Colorado Marrow Donor        Denver               co        3,747,982       23%       34,325
        Program
     591University Medical Center   Tucson                AZ        1,092,2321      24%1       3,216
[-   ~/New York Blood Center        lNew York             NY I     18,765,8691      39%1      65,982]
     62 United Blood Services        Albuquerque          NM /      1,362,241        9%        4,630
     63 LlfeSource                   Glenview             IL ~      7,039,960       84%       21,355
     64 Central Florida Blood        Orlando              FL        2,862,030       51%         5,224
        Bank                                                   1
                                    Oakland               CA        2,082,914       100%       12,279
     66 Alameda-ContraCosta
        Medical Association                                    I
r    ‘I
     67 City of Hope National
        Medical Center
     68 Peninsuia Blood Bank
                                    Duarte

                                    Burlingame
                                                          CA

                                                          CA
                                                               I   14,901,137

                                                                       649,623
                                                                                    100%

                                                                                    100%
                                                                                              23,512

                                                                                                3,976
     70 Heart of America Registry   Kansas City           MO       38,476,844        65%       88,909
     74 HLA Registry Foundation     River Edge            NJ       29,964,435        95%      109,099
     75 Methodist Hospital          Houston               TX        5,030,783       100%        4,623
     76 Community Blood Center      Dayton                OH        1,573,020        28%        7,007
     78 Virginia Blood Services     Richmond              VA I      i ,763,405/      54%/       9,046/
     79 St. Alphonsus Regional      Boise                              841,200      100%        1,593
I                                                              I
                                                          ID
        Medical Center
                                                          PA        4,022,386       43%        6,308
     81 Puget Sound Blood Center Seattle                  WA        4,218,015        9%       27,593
                                                          WI        1,735,364        0%       22,643
~
                                    Salt Lake City        UT
                                                               I    1,912,791        9%         3,572
I ‘1 83 IntermountainMarrow
        Donor
I    851University of Louisville ]Louisville              KY        2,098,501        17%        7,555
     86 Stewart Regional Blood    Tyler                   TX          895,293       100%        5,040
1       Center
     87 Bill Young Donor Center Bethesda                  MD not applicable                   83,873
     88 Assoc. of Independent     West PaIm               FL     4,858,161          89%          990
        Blood Centers             Beach
     89 Mountain States Marrow Boise                      ID        1,053,517       100%        3,011
        Donor Center                                           I                1         I


     90 Rhode Island Blood Center Providence              RI        1,003,4641 100%1           11,778
     91 GuJf Coast Regional Blood Houston                 TX        4,504,753 100%             17,151
1       Center
     92 United Blood Services     Las Vegas               NV
                                                               I    2,419,238       63%         2,518
     93 Mississippi Marrow Donor Jackson                  MS        2,919,679       42%         5,764
        Program                                                I                I         I

     94 Baylor Research Institute Dallas                  TX        6,201,3331 92%[             8,262
     97 Community Blood Center Appleton                   WI          280,830 49.966            1,066
                                                               I                  %,



                                                   A-3

 98]Leon County Blood Bank ]Tallahassee            FL   1,272,857]    51%1    1,451[
 99 Northern Illinois Blood   Rockford             IL     655,706    100%     1,637
    Bank
100 North Jersey Blood Center East Orange          NJ   6,217,506    100%     7,819
101 Cook-Ft. Worth Children’s Fort Worth           TX   3,877,589     56%    20,137
    Medical Center
102 South Texas Regional      San Antonio          TX   3,193,622     5%     19,091
    Blood Bank
103 United Blood Services     Chicago              IL   5,621,485    100!%    8,492
105 Champaign County Blood Urbana                  IL   1,446,262     77%     1,634
    Bank
108 Central Texas Regional    Austin               TX    874,238     21%      4,122
    Blood
109 ARC Puerto Rico           San Juan             PR   3,522,037     o%      1,460
111 ARC AppalachianRegional Roanoke                VA   3,336,493    54%      1,191
    Blood Service
112 Cooperative Appalachian Johnson City           TN   1,624,276    80%       918
    Marrow Program
115 Blood Assurance, Inc      Chattanooga          TN     625,787    48%      1,130
116 Scott & White Clinic      Temple               Tx     832,775    63%      2,004
118 ARC Blood Services        Savannah             GA   2,924,744    86%      1,568
    Southeast




                                            A-4

                             APPENDIX                    B


                               METHODOLOGY


Determination of Service Area Overlap

Redetermined each donor center’s service area by using the NMDP’sDonor Center
Access Directory, published in October 1995. In that directory, each donor center
provided amapdelfieating   its service area.

We used 1990 U.S. Census DaWthe most recent available, atthe county level. We
matched these data with the counties that each center described as its service area.

If two or more centers covered a particular county, we defined the service areas as
overlapping.

We calculated the percentage of service area overlap as a ratio:

  .    The denominator is the entire population in each donor center’s service area.

  �    The numerator is the population in that donor center’s service area that reside in
       counties served by one or more other donor centers.

We excluded the Bill Young Marrow Donor Center from this amlysis because it is part of
the U.S. Navy. This center has a unique focus on recruitment of U.S. Military Personnel
worldwide. Consequently, we consider issues related to overlap and donor recruitment to
be substantially different from the other centers in the program.

Mail Survey

In July 1995 we mailed a survey to each of the 98 donor centers then in operation. We
received responses from 89, a 91 percent response rate. Because one of those centers has
since merged with another center, we chose to omit the responses of that center from our
analysis. In this report, we draw on the questions described on the following page.




                                            B-1

                                                                                                         . ..........................................
                                                                       :::::::::::::.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.
                                                                                                  :.:.:.:.:.:.:.    .                .... .

 Are there other NMDP accredited donor centers operating in the          56                                   32
 same area that you serve?
 (Zf you answered “yes,” please answer the rest of the questions         (64%)                                (36%)
 on this page; if you answered “no” please go to the next page.)




 Do you feel that your donor center’s geographic service area          47                                         8

 overlaps with that of another donor center(s)?                        (85%)                                      (15%)


 Do you feel that the populations your center targets for donor        43

 recruitment overlap with those targeted by another donor              (78%)

 center(s)?

 Does your center routinely share information about recruitment        28                                        27

 drives with other centers?                                            (51%)                                     (49%)

 Does your center hold recruitment drives in conjunction with          21                                        35

 other donor centers in your area?                                     (38%)                                     (63 %)

 Does your center have informal understandings with other donor        39

 centers about how each center focus its efforts?                      (70%)                                      ::0%)

 Does your center have written agreements with other donor             3                                         53

 centers about how each center focus its efforts?                      (5%)                                      (95 %)





                       Cooperative                     Neutral                                             Competitive
                           5              4              3                     2                               1
 Donor Center 1    22                4            10              4                                      17
 Donor Center 2    19                3            4               3                                      8
 Donor Center 3    12                3            4                1                                     3
 Donor Center 4    4                 3            2                1                                     2



We also draw on open ended responses to the survey and on discussions and observations
made during our site visits for qualitative interpretation of the data




                                           B-2

                            APPENDIX                      C



   TEXT OF COMMENTS                        ON THE DRAFT REPORT





Health Resources and Services Administration     . . . . . . . . . . . . . . . . . . . . . . . . C-2


National Marrow Donor Program..       . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..CA




Note: The Health Resources and Services Administration and the Natioml Marrow Donor
Program provided combined comments on four draft reports that examined the National
Marrow Donor Program. This appendix includes only those portions of their comments
that are relevant to the report entitled “National Marrow Donor Program: Geographic
Overlap Among Donor Centers. ”




                                          c-1
     #   ,,,1   m,

    �
    A+               4




         &
                                                                                                              Public kleekh Service
g                            DEPARTMENT OF HEAL’1= & HUMAN” SERVICES
:
~i   \
    “%m;~                                                                                                     Health Resources and
                                                                                                               Services Administration
                                                                    OCT ~ 3 Pgt
                                                                                                              Rockville MD 20857


                         TO:
             Inspector       General, DHHS

                         FROM :        Deputy         Administrator

                         SUBJECT :    office     of Inspector General  (OIG) Draft Repo-rtsf
                                      IiNational    Marrow Donor Program (NMDP) :
                                      1) Financing Donor Centers OEI-01-95-00123

                                      2) Progress in Minority Recruitment OEI-01-95-00120                                                “

                                      3) Geographic Overl”ap Among Donor Centers

                                          OEI-01-95-00122

                                      4) Effectiveness in Retaining Donors 0EI-01-95-00121~C                                              “.



                     Attached        is HRSA’S          response
                                                              toyour      memorandum                    requesting
                     comments        on the four           subject draft reports.

                     We appreciate the OIG conducting the review, “Bone Marrow Program

                     inspection.  “ The draft  reports were forwarded to the NMDP for

                     comment.    Their comments have been incorporated into our

                     response.    HRSA and NMDP will be performing further analysis and

                     examination regarding some issues, such as restructuring of donor

                     centers,        implementation            of     performance         indicators,      and

                     specification          of retention       specific changes are

                                                                      rates,     before
                     made.  HRSA plans to utilize the findings  and recommendations

                     contained in these reports as an integral part of the development

                     of the contract.


                     Questions       may be referred to AD irdre Walsh on x35181.                                 ‘





                     Attachment





                                                                             c-2
 OIG Report:   Geographic Overlap Amona Donor Centers

                 0EI-01-95-O0122


 No specific recommendations.


 GENERAL COMMENTS

 HRSA notes  thatthe  conclusions state that service area overlap,
 though substantial, appeared to have little, if anyl impact on
donor centers’ performance as measured in this    report. The
report lacks an assessment of the relationship between geographic
overlap  and cost-efficiency of donor center operations.
Geographic overlap does nor have to be a problem, provided
competition is not counterproductive.    HRSA raised concerns in an
earlier draft about inefficiencies and confusion resulting from
geographic overlap among donor centers.


Bidding  for territory needs further evaluation.   A difference of
opinion was expressed regarding the potential effects of the
bidding process, particularly because of the concern that the
phrase, “service area     “ is
                    overlap,        not well defined and the

analysis is an                 Modeling

               oversimplification.   of          various donor

center configurations should take into consideration the

complicated issuesofgeographic
   overlap.





                                 c-3
                                                   September 4, I!&
              National               MmTOW
                Donor            FrugmTI

      N~tioIM Coomlinsting Ccnkr
          3433 Emadwuy Stxaf N.E.
                           Suirc ~
             Mhmmpdis. MN 55411
                      6 L2-627-58rx)          ,   Judith Braslow

                                              I
                   I -tUxJ-sz&7twJ
                FAX: 61>6274W                     Director, Division of Organ Transplantation

                                                  Health Ilesources and Services Administration

                    Seard      ofmfwdo~           Park Lawn Building
      HcrbaK A. Pcfkim, M.D., (%uar           I   5600 ~SkfS Lane - Room 729
       Jnndwn R bong, P& (%uir
              clam Psdilla A*s                    Roclwiflc, MD 20857
             Richmd H A$w. M.D.
             h~ncc      D. AtlX’, J.IJ.
                Jn~h “t BdL M.D.                  kr    Ms. BraS~OW:
            80 Dupont, .M.D., 0..%.
             Ro&r    W. P.vww *D.
           Ban S. tishcr. I.D.. Ph.D.             Thank you very much for providing the National Marrow Donor
          Dnvid B. Fmhnmsvcf. J.IJ.               Program@ (NMDP) with an opportunity to review the draft reports of the
            J. Cunynn (lordon. J.D.
             JohnA. lLmerL M.~.                   Office of Imp=tor GmemJ (OIG), Depa~ent of H~ti and Human
-e&rick J. Hams. M.S.F.&. M.B.A.                  Services. The draft reports were sent to members of the Minority Affairs,
 . MW M. Hnmwicz M. D.. M.S.
                ErnstR. J.W. M.D.                 Membership and Process Improvement, Donor Recmit.ment and Executive
             Nancy A. Kcmsn M.U.                  Committees as well as the NMDP’s Network EYahzationAdvisory Panel
               sos   kitmnm MD.                   and sckmrcd members of the staff.
{ichola* J. NaIhnusd. J.D.. k4SLM.
                R&1.       Plq?eM-U.
           Gsrlcs A. (CAP) Pdicf                  The comments received have been collati and a synthesis of the
       rm     pcetwm, M. P.. Ph.D.
      U. Gcn. F-k      E. Pcterm. Jr.
                                                  responses is presented below. The intent of the J’?MDP    is

                                                                                                              not to criticize
              Kobtsl K. Ruu. M.D.                 the draft reports, but rathertoadd information fkom a varie~ of
              E&d P.sam. M.D.
            12avid F. StronaL MD.
                                                  respondents, all of whom have been involvai with aspects of donor center
          J&II S. ‘130topsxI. MJY.                operations andlor donor recruirmenf. As you know the NMDP is well
           CIWICS H. Walk. M.D.
             SIewm N. WulITo    M.D.
                                                  along in its own analysis of donor center timetions, the findings of which
wmmeuc K- YaOCCY.M. D.. M. J’.H-                  should provide fiwthcr useful recommendations.
        Admiml E- R. ZurnwdL Jr.

      f.3a@ W. S. HnWA M. D.. PtLD.
                                                  Following the summaryof cmnments on each draft      RPOrt we Mve     .
             Chkfizzmulwr OLTW                    provided our own list of recommendations for modification of the OIG
                                                  document.
               Cluirs Rnacritan:
               c.oruves.
          IZ(imt        D.V.M.
         Admiml E. R. Zumwah. Jr.

           LRgm Grows Awwd:
llu   HnnnrmbtcU. W. Y3il~ yUUOg
            John A. Han.=%M.~­
              (nswic bkML             MD.

       A cdldmrwf’c         effoff   of tie

           Amcncon Association
                    tinki~
            Amcricm)         RedCr06S
          Co.ncii    d CO!OfIlti@
                     BlootiCen@~
            With fwdmg (rum:
  Health Resuttes and Scwiccs
               Admintwwwn              and
      Naval Medical    Rcwtrch nnd
          ~kymen[            Ct)mmd
Geographic Overlap
          One respondent feIt that continuing the geographic    overlap
                                                                    of donor centers      would
          make it difficult IOestablish minority recruitment goals reflective of the population
          served by the competing centers. While possibly mahg centers more efficient,
          competition for a donor could well be munterproductivc as has already been

          demonstrated for blood donors.

          There was a differe~  of opinion regarding a bidding process to establish defti

      NMDP service areas. It wls thought to be the prefimb]e approach by one individual,

      but another felt that it ~tid FXXCMY alienate donor centers and ultimately disrupt the

      program. An alternative suggestion was tlult of a “huh and spoke” model of

      recruitment and donor management.

     Servicz area overlap w% not well defined in the draft report. For example, in

     Caiifomia it could be sati that every donor center is overlapped by the Hem of

     America (HOA) donor centi when in fact there are areas of the state not sewed by

     HOA. *other oversi.mplfx=tion is found jn Appendix B where the fact that sow

     counties are send by mom b        00Cdonor center is ignored in reaching conclusions

     about the percentage of population served.


     Recommended         Modifications   to the Drafl Report:

     c
         We agree with the OIG  report that geographic overlap per se does not have to
                be a problem, bw this ckpends on whether the overlapping centers cQopcrate or
                compete. Blood bank experiences have shown clearly that compeation f~
                donors is um.nkrproduetive.
     �	         Bidding for tirTitorY needs fkther evaluation &fore giving it serious
                consideration. It ~uld crtatc much ill will for the program from groups whose
                support wend.

     �	         TIE NMDP feels tit modeling of various dorm center, recruitment group and
                distant donor satelli~ con.@urations, as a part of the Network Evaluation, will
                be helpful in sornng Wt h compiicmti        issu= of geographic ovcdap.




                                              c-5
                                             ,.




    we ~   ~dy      embarked upon continuing the effo~ begun with these OIG d.mfc reports. Our
    own detailed evaluation of costs to recrwt donors and rerneve them for donation is well under
    way. The effects of geographic overlap = being evaluated by our Network Evaluation
    Advisory Panel and by several committ=.         Minority recruitment approaches and donor
    retention are areas of high concern, being addressed by our Mimrity Affairs Committee, the
    Donor Recruitment Committee, and the Mmbe@Lip and Process Improvement Committee.

    These are all high priority items for our Board of Directors, which will be reviewing these
    documents at its regular mating in several weeks.

    We hope that you find these comments helpfil. The NMDP thanks you for sharing these draft
    reports and looks forward to a continuing collaboration in improving all aspects of donor
    center and recruitment group operations.


                                                                         &~    /



                                                                   M.D.
                                                         Herbert A. Perkins.
                                                                                            .
                                                                Chair

                                                         NMDPBoard




.




                                                  C-6

                            APPENDIX                   D


                                  ENDNOTES



1. Natioml Marrow Donor Program, The Living Gij of Life, October, 1994.

2. Bone Marrow Transplants - A Book of Basics for Patients (reprinted by NYSERnet,
Inc. with permission from BMT newsletter), chapter 4, pp. 35-36.

3. Excluding the Bill Young Donor Center.

4. The remaining centers are paid through a cost-based contract.




                                          D-1

